Supp. App. 1
SUPPLEMENT TO SERVICE PLAN
OF MARIN METROPOLITAN DISTRICT
AUGUST 2007
This Supplement to Service Plan (“Supplement”)
of the proposed Marin Metropolitan District (“District”) supplements and modifies the content of the Service Plan (“Service Plan”) of the District filed with the
City of Greenwood Village, Colorado (“City”) but only
to the extent specifically set forth herein. All capitalized terms in the Supplement shall have the meanings
as defined herein or as defined in the Service Plan.
1. Overlapping Districts. The District shall not
provide any service or facility that is currently furnished by Greenwood Metropolitan District, Greenwood North Metropolitan District, Goldsmith Gulch
Sanitation District, Southgate Sanitation District or
Southgate Water District (collectively, the “Existing
Districts”) within the District’s Service Area until (i)
any property within the Landmark Plat or the Marin
Plat respectively has been excluded from each of the
Existing Districts in which such property is situate [sic],
or (ii) the board of directors of an Existing District has
given written consent authorizing the District to provide services or facilities within such Existing District’s boundaries in accordance with statutory
requirements.
2. Duplication of Facilities. Any provision of the
Service Plan notwithstanding, the District shall not finance, acquire or construct any infrastructure improvements listed in the Sales Tax Rebate Agreement

Supp. App. 2
or the Development Improvement Agreement Relating
to the Landmark (“Landmark DIA”) dated November
22, 2005 between the City and East Berry Avenue Associates, L.P., including any engineering costs or related expenses.
3. Developer Agreements with City. No provision
of the Service Plan shall be construed to modify,
change, amend, terminate or otherwise affect any obligation of the developer under the Landmark DIA or
any developer improvement agreement or subdivision
improvement agreement entered into in the future between the City and the developer of Marin relating to
infrastructure improvements specified therein. The
District will, however, furnish maintenance services
for medians in East Berry Avenue in accordance with
the Matrix and the City IGA.
4. District Streets. The District shall not finance,
acquire or construct any street improvement unless (i)
the District has fee title or a sufficient public access
and improvement easement for the street right-of-way,
or (ii) there is a platted right-of-way for such street,
including without limitation any District street improvements on the CoBank property or in Marin Drive.
The City shall have no maintenance responsibility for
internal District streets, including without limitation
Marin Drive and any street on the CoBank property.
5. City Services Mill Levy. Part VIII.F of the Service Plan relating to the City Services Mill Levy shall
be amended as follows: (i) all references to the rate of
the City Services Mill Levy shall be changed from six

Supp. App. 3
(6.0) mills to eight (8.0) mills, and (ii) the phrase “or (y)
the total costs to the City of funding its recreation reimbursement program to residents within the District”
in the proviso clause shall be deleted therefrom.

Supp. App. 4
SALES TAX REBATE AGREEMENT
This SALES TAX REBATE AGREEMENT (the
“Agreement”) is made and executed this 22nd day of
November, 2005, by and between THE CITY OF
GREENWOOD VILLAGE, COLORADO, a Colorado
home rule municipal corporation (the “City”), and 7677
East Berry Avenue Associates, L.P., an Oklahoma limited partnership (“Owner”).
WHEREAS, Owner owns certain real property
more particularly described in Exhibit 1, attached
hereto and incorporated herein by this reference (the
“Property”);
WHEREAS, Owner has agreed to undertake certain public improvements on the Property while making the Property more viable as a competitive retail
sales center;
WHEREAS, the City, as a home rule municipality,
possesses the lawful authority to collect and thereafter
dispose of and spend sales taxes collected by the City
for public purposes, including those public improvements to be constructed by Owner; and
WHEREAS, Chapter 3.36 of the Greenwood Village Code expressly authorizes the City to enter into
sales and use tax rebate agreements.
NOW THEREFORE, for the mutual consideration
of the performance by each party of the obligations
assumed by that party hereunder, the receipt and adequacy of which is hereby acknowledged, the parties,

Supp. App. 5
for themselves, their successors and assigns, hereby
agree as follows:
1. Definitions. For purposes of this Agreement,
the following terms shall have the following meanings:
a. “Development Applications” means the
Master Development Plan, Rezoning to the Town
Center Zone District, Subdivision Plan and three
(3) Site Development Plans for The Landmark project for the Property.
b. “Enhanced Sales Tax Revenue” means the
amount of sales tax generated by businesses on
the Property and collected by the City over and
above the base amount of sales tax generated by
the businesses on the Property and collected by
the City in the year immediately preceding the
date of this Agreement, which, for purposes of this
Agreement, is zero.
c. “Phase I construction” means the construction of the commercial and retail space on the
Property, as more particularly described in Exhibit 2, attached hereto and incorporated herein
by this reference.
d. “Phase II construction” means the construction of the first residential tower and associated retail on the Property, as more particularly
described in Exhibit 2, attached hereto and incorporated herein by this reference.
e. “Phase III construction” means the construction of the second residential tower and associated retail, as more particularly described in

Supp. App. 6
Exhibit 2, attached hereto and incorporated
herein by this reference.
f. “Project” means the development proposed
generally at the northwest corner of East Berry
Avenue and Greenwood Plaza Boulevard as shown
in the Development Applications.
g. “Retail Space” means the nonresidential
space in the Project which is occupied by stores
selling retail goods, restaurants, entertainment
uses, theaters, bars, salons, and spas, but not to include any space leased exclusively for office uses.
2.

Improvements.

a. Attached to this Agreement as Exhibit 3
is a list of Owner’s plan for certain public improvements to the Property, which are referred to collectively as the “Eligible Improvements.” The Eligible
Improvements shall be constructed in compliance
with approved construction plans by a licensed
contractor qualified to perform the work.
b. Owner agrees to complete the Eligible Improvements on or before June 30, 2007. Completion of the Eligible Improvements shall be deemed
to have occurred upon final acceptance of the Eligible Improvements by the City, provided, however
that this Agreement shall not affect or impair any
warranties for such construction. The Eligible Improvements shall be completed by June 30, 2007
regardless of cost increases or other unforeseen
circumstances, except as otherwise provided by
Paragraph 18 hereof.
c. Owner shall own the public parking garage and maintain the public parking garage in a

Supp. App. 7
reasonable manner during the useful life of such
improvement.
d. Owner agrees that the public parking garage to be constructed on the Property is a public
benefit being financed by the City pursuant to this
Agreement. The public parking garage shall at all
times be available to provide the parking required
by the Development Applications for the commercial and Retail Space of the Phase I construction,
Phase II construction and Phase III construction.
While such parking shall generally be available to
the public, to ensure that the public parking garage is first available to serve the needs of the Project, nothing shall preclude Owner from adopting
rules and regulations, allocating spaces for particular tenants, posting appropriate signage reasonably approved by the City, closing the public
parking garage for the minimum amount of time
legally required to be sufficient to preclude the creation of any prescriptive rights, or in any other
manner controlling the use and availability of the
public parking garage for the benefit of the Project
and the retail tenants in the Project. Owner shall
not impose a fee for parking in the public parking
garage.
3. Enhanced Sales Tax Rebate. As an inducement to Owner to complete the Eligible Improvements,
the City agrees to set aside and thereafter rebate to
Owner, on the percentage basis identified herein, the
Enhanced Sales Tax Revenue generated by the businesses occupying the Property to a maximum aggregate amount set forth in Paragraph 7. Such rebate
shall be subject to the following:

Supp. App. 8
a. Subject to subparagraph 3(b) below, commencing on the date of the opening of the first
business on the Property, the City shall rebate to
Owner fifty percent (50%) of all Enhanced Sales
Tax Revenue generated by the Property. The rebates shall be made quarterly (i.e. January, April,
July, October) commencing in the first quarter after the quarter in which the first business opens.
Payments shall be made to Owner thirty (30) days
after the required collection filing deadline for the
sales tax collection from the retail tenants in the
Project.
b. Until such time as Owner has tenants occupying 87,000 square feet of Retail Space on the
Property, the City shall escrow Owner’s fifty percent (50%) of the Enhanced Sales Tax Revenue.
Following occupancy of said 87,000 square feet of
Retail Space, the City shall pay the escrowed
funds to Owner and thereafter rebate Owner’s
fifty percent (50%) of the Enhanced Sales Tax Revenue to Owner in accordance with subparagraph
3(a).
c. If, in any quarter, no Enhanced Sales Tax
Revenue is generated by the Property, no rebate
shall be due to Owner for that quarter.
d. During the warranty period for Public Improvements set forth in the Development Improvement Agreement, if Owner does not, in accordance
with the notice and time requirements set forth
therein, replace, repair, modify or correct the Public Improvement which the City has determined
has failed or was not constructed or installed in
accordance with the Development Improvement

Supp. App. 9
Agreement, then the City shall have the right to
withhold from the sales tax rebate to Owner the
amount required to make such replacement, repair, modification or correction.
4.

Building Permit Fees.

a. The City agrees to waive all building permit fees for permits issued on or before June 30,
2007 for Phase I construction on the Property. Any
subsequent Phase I construction activities shall be
subject to all applicable building permit fees.
b. The City agrees to waive all building permit fees for permits issued on or before March 31,
2008 for Phase II construction on the Property.
Any subsequent Phase II construction activities
shall be subject to all applicable building permit
fees.
c. The City agrees to waive all building permit fees for permits issued on or before October 31,
2008 for Phase III construction on the Property,
Any subsequent Phase III construction activities
shall be subject to all applicable building permit
fees.
d. Nothing in this Paragraph shall relieve
Owner from obtaining any approvals or permits
required by the Greenwood Village Code or other
City regulations.
e. The only building permit fees waived under this Paragraph 4 shall be those fees for all initial construction on the Project, including, but not
limited to, the initial shell and core construction,
the initial tenant finish and unit finish work, and
common element and common area construction.

Supp. App. 10
5.

Sales and Use Taxes.

a. The City agrees to waive its sales and use
taxes on all building and construction materials
for Phase I construction on the Property on or before June 30, 2007. Any subsequent Phase I construction activities shall be subject to all
applicable sales and use taxes.
b. The City agrees to waive its sales and use
taxes on all building and construction materials
for Phase II construction on the Property on or
before March 31, 2008. Any subsequent Phase II
construction activities shall be subject to all applicable sales and use taxes.
c. The City agrees to waive its sales and use
taxes on all building and construction materials
for Phase III construction on the Property on or
before October 31, 2008. Any subsequent Phase III
construction activities shall be subject to all applicable sales and use taxes.
d. The only sales and use taxes waived in accordance with this Paragraph 5 shall be those
taxes imposed on all initial construction on the
Project, including, but not limited to, the initial
shell and core construction, the initial tenant and
unit finish work, and common element and common area construction.
6. Plan Review Fees. The City shall impose plan
review fees for review of all plans for the Property, and
Owner shall be responsible for payment of such fees as
required by City regulations.

Supp. App. 11
7. Maximum Rebate. In no event shall the total
amount rebated by the City to Owner or waived under
this Agreement pursuant to Paragraphs 3, 4 and 5 exceed sixteen million nine hundred eighty three thousand seven hundred twenty dollars ($16,983,720).
Notwithstanding the foregoing, if the actual costs of
the Eligible Improvements are less than sixteen million nine hundred eighty three thousand seven hundred twenty dollars ($16,983,720), said maximum
amount shall not exceed the actual costs of the Eligible
Improvements. The actual costs of the Eligible Improvements shall be evidenced by invoices and receipts
satisfactory to the City in form and substance. Notwithstanding any obligation to make a payment to the
contrary, the City shall not be required to make to
Owner any sales tax rebate payment until thirty (30)
days following receipt of such invoices and receipts.
8. Term. The term of this Agreement shall be
twenty (20) years from the date of issuance of the first
certificate of occupancy for a retail or commercial business on the Property. Upon receipt of the maximum rebate amount by Owner in accordance with this
Agreement, the City’s obligation to rebate Enhanced
Sales Tax Revenue to Owner shall terminate, but all
other provisions of this Agreement shall remain in full
force and effect through the end of the twenty (20) year
term. Upon expiration of the term of this Agreement,
the parties’ obligations hereunder shall terminate,
whether or not the maximum amount of Enhanced
Sales Tax Revenue rebate has been reached.

Supp. App. 12
9. Accounting. It is an overriding consideration
and determination of the City that existing sources of
City sales tax revenues shall not be used, impaired or
otherwise affected by this Agreement, Therefore, only
Enhanced Sales Tax Revenue generated by the Property shall be subject to rebate under this Agreement.
The City shall collect and hold all such Enhanced Sales
Tax Revenue in a separate account apart from the
sales taxes generated by and collected from the other
sales tax generating uses and businesses within the
City. The City hereby states that this Agreement would
not be adopted or implemented but for the provisions
of this Paragraph.
10. Escrow. The parties agree that in the event of
any legal challenge to this Agreement, the City shall
place any and all funds to which Owner would have a
claim under the terms of this Agreement in an interest
bearing account, capable of separate identification,
during the pendency of the legal challenge. Upon any
final decision upholding the enforceability of this
Agreement, all amounts in such account, including
principal and accrued interest, shall be paid forthwith
to Owner. If this Agreement is determined to be invalid
or unenforceable, all amounts in such account, including principal and accrued interest, shall be deposited
by the City into its General Fund and Owner shall
have no further claim thereto. The parties covenant
that neither will initiate any legal challenge to the
validity or enforceability of this Agreement, and the
parties will cooperate in defending the validity or

Supp. App. 13
enforceability of this Agreement against any challenge
by any third party.
11. Approval and Modification. This Agreement
shall take effect only upon approval by the Greenwood
Village City Council at a regular or special City Council meeting. No modification of this Agreement shall be
valid or binding unless the same is in writing and approved by the City Council at a regular or special meeting.
12. Assignment. This Agreement shall be binding upon and inure to the benefit of the Owner and the
City. The City’s commitment to make the payments
hereunder are made for the benefit of Owner, and shall
be enforceable by the Owner or any affiliate of the
Owner or other party who is a successor-in-title to
Owner’s interest in the Project and has assumed in
writing the duties and obligations of Owner, provided
that nothing shall require Owner to assign the benefits
of this Agreement to any successor-in-title to Owner’s
interest in the Project and the City agrees that Owner
may transfer title to the Project while retaining the
benefits of this Agreement. Owner shall also have the
right to assign this Agreement, and the City’s obligation to make payment of the Enhanced Sales Tax Revenue, to a third party independent of a transfer of title
to the Property, including, but not limited to, any assignment, pledge or encumbrance of Owner’s rights
under this Agreement in favor of any lender or other
person providing financing for construction and development of the Project. The term “affiliate” shall mean
an entity or individual which directly or indirectly

Supp. App. 14
controls, is controlled by, or is under common control
with any identified person and, as to natural persons,
shall also include the immediate family of such persons. The approval of this Agreement is the express
authorization of the City Council of the City for assignment of this Agreement, in accordance with the requirement of Section 3.36.090 of the Greenwood
Village Code. Except as authorized in this Paragraph,
this Agreement is personal to Owner. This Agreement
shall not run with the land.
13. Controlling Law and Venue. This Agreement
shall be construed pursuant to the laws of the State of
Colorado. Exclusive jurisdiction for the resolution of
any dispute relating to this Agreement is hereby
vested in the Arapahoe County District Court or the
United States District Court of Colorado.
14. Contingency; No Debt. Pursuant to Article X,
§ 20 of the Colorado Constitution, the City’s financial
obligations under this Agreement are specifically contingent upon annual appropriation of funds sufficient
to perform such obligation. This Agreement shall never
constitute a debt or obligation of the City within any
statutory or constitutional provision. Each year, the
City shall include in the budget presented to the City
Council a proposed appropriation or the rebate of Enhanced Sales Tax Revenue to which Owner is entitled
under this Agreement, if any. The decision of the City
Council not to appropriate funds in any given year
shall not affect, impair or invalidate any of the remaining provisions of this Agreement in future years, and
the failure of the City in any year to appropriate the

Supp. App. 15
Enhanced Sales Tax Revenues otherwise due Owner
shall cause the term of this Agreement to be extended
by one year. Without contradiction of the preceding
sentence, the City does hereby state that it is the present intent and expectation of the parties that the City
will make all of the payments contemplated by this
Agreement, and that the City acknowledges its moral,
but not legal, obligation to make the payments contemplated hereunder, and that the Project is being constructed in reliance thereon.
15. No Joint Venture. Notwithstanding any provision hereof; the City shall never be a joint venture in
any private entity or activity which participates in this
Agreement, and the City shall never be liable or responsible for any debt or obligation of any participant
in this Agreement.
16. Chapter 3.36. Pursuant to Section 3.36.080 of
the Greenwood Village Code, Owner has filed an application for inclusion into the Sales and Use Tax Rebate
Program. This Agreement shall constitute the agreement required by Section 3.36.090 of the Greenwood
Village Code. This Agreement shall at all times be subject to Chapter 3.36 of the Greenwood Village Code, as
amended, and any regulations promulgated in accordance therewith, and Owner expressly agrees to be
bound by such Chapter and regulations; provided,
however, to the extent there is any ambiguity between
this Agreement and Chapter 3.36, the terms and provisions of this Agreement shall control.

Supp. App. 16
17. No Third-Party Beneficiaries. Except as may
be expressly provided herein, there are no intended
third-party beneficiaries to this Agreement.
18. Force Majeure. The time of performance of
any duty or obligation of Owner or the City hereunder
shall be extended for the period during which performance was delayed or impeded by reason of riots, insurrections, war, fire, casualty, earthquake, acts of God,
or other reasons of a like nature not the fault of the
party performing such duty or obligation.
CITY OF GREENWOOD VILLAGE
/s/ Nancy N. Sharpe
Nancy N. Sharpe, Mayor
ATTEST:
/s/ Sue M. Phillips
Susan M. Phillips, CMC,
City Clerk

[SEAL]

APPROVED AS TO FORM:
/s/ Kendra Carberry
Kendra L. Carberry, City Attorney
7677 EAST BERRY AVENUE
ASSOCIATES, L.P., an Oklahoma
limited partnership

Supp. App. 17
By: EPE Denver, LIMITED LIABILITY
COMPANY, an Oklahoma limited
liability company, General Partner
By: /s/ Zack Davidson
Zack M. Davidson, Manager

STATE OF COLORADO )
)
COUNTY OF___________ )

ss.

Subscribed and sworn to before me this 17 day of
November, 2005 by Zack Davidson, as ____________ of
7677 East Berry Avenue Associates, L.P.
My commission expires: 6/22/09
(SEAL)

/s/ Tabetha Specht
Notary Public

Exhibit List
Exhibit 1
Exhibit 2
Exhibit 3

Property Description
Project Phases
Eligible Improvements

EXHIBIT 1
Property Description
Lots 9 and 10, Block 1, a part of Lot 11, Block 1, and a
part of Lots 6 and 7, Block 2 of the subdivision of Section 16 as recorded in Book 2, Page 10 of the records of
the Arapahoe County Clerk and Recorder, in Township

Supp. App. 18
5 South, Range 87 West of the 8th Principal Meridian,
County Arapahoe, State of Colorado, being more particularly described as follows:
Commencing at the West Quarter Corner of said Section 18; Thence North 88° 30' 08" East, 858.95 feet to
southwest corner of Lot 9, Block 1 and the POINT OF
BEGINNING:
Thence North 00° 08' 19" West along the west line of
Lots 9, 10, 11 said Block 1, a distance of 987.32 feet to
the northwest corner of said Lot 11, Block 1;
Thence North 89° 27' 30" East, along the northerly line
of said Lot 11, Block 1, a distance of 583.70 feet to the
westerly line of that tract of land described in Reception No. B3077148 of Arapahoe County Records;
Thence South 24° 32' 48" East, along said westerly line,
a distance of 708.86 feet to the southerly line of Lot 7,
Block 2;
Thence South 89° 27' 21" West, along said southerly
line a distance of 159.27 feet to easterly line of South
Syracuse Street, same being the;
Thence South 00° 02' 13" East, along said easterly line,
a distance of 320.09 feet;
Thence South 89° 29' 13" West a distance of 688.80 feet,
to the POINT OF BEGINNING.

Supp. App. 19

Project Phases

EXHIBIT 2

Supp. App. 20
EXHIBIT 3
Eligible Improvements
The purpose of this exhibit is to identify and describe
the public improvements to be constructed as part of
the Landmark development which are eligible for public financing. The work generally includes the construction of the new Greenwood Plaza Boulevard Extension
together with its associated sidewalks, wet & dry utilities and landscaping; a new approximately 300,000
square foot, three level, two of which are subterranean,
parking garage together with its associated sidewalks,
utilities, detention & water quality structures, and
landscaping; signage; mature tree relocations and replacements; and all offsite improvements including,
but not necessarily limited to, reconfiguration and/or
reconstruction of Quebec Street, East Berry Avenue,
Syracuse & Roslyn Streets, together with all associated wet and dry utilities as may be required, signage,
sidewalks and landscaping. The work is further described below.
Greenwood Plaza Boulevard Extension
The work includes all material, labor, equipment
and incidentals required to complete the construction of Greenwood Plaza Boulevard Extension from Roslyn Street to Syracuse Street
including, but not necessarily limited to, the following:
Clearing & stripping of the site area
Engineering & layout of the right-of-way

Supp. App. 21
Engineering, lay-out & installation of storm drainage
system
Engineering, lay-out & installation of water system
Engineering, lay-out & installation of sanitary sewer
system
Engineering, lay-out & installation of roadway lighting
system
Engineering, lay-out & installation of pedestrian
lighting system
Grading & balancing of the area for road base
preparation
Proof rolling & preparation of the road base per
Plans & Specifications
Installation of entrance aprons, accesses, & curb cuts
Installation of concrete curbs & gutters
Installation of full thickness asphalt road material
Installation of concrete sidewalks
Striping & marking of the road
Installation of directional, safety & way finding signage
Installation of pedestrian crosswalks & decorative
intersections
Relocations and replacements of mature trees
Landscaping & hardscaping
Installation of underground irrigation system
Engineering & testing of materials
Department of Public Works Fees
Parking Garage
The work includes all material, labor, equipment
and incidentals required to complete the construction of the parking garage including, but
not necessarily limited to, the following:
Clearing & stripping of the site area
Engineering & layout of structures & systems

Supp. App. 22
Mass excavation for the garage, detention & water
quality structures & systems
Trucking of backfill to suitable onsite storage areas
and/or of excess material to offsite locations
Installation & maintenance of construction dewatering
systems
Rough grading of the garage area for foundation base
preparation
Surveying & layout of garage caissons
Drilling & placement of garage caissons per Plans &
Specifications
Installation of garage & water quality structure
concrete beams & footings
Installation of the cast-in-place concrete garage
perimeter walls
Installation of cast-in-place concrete and segmental
water quality system retaining walls
Fine grading the garage area for foundation base
preparation
Installation of the garage foundation & lower level
parking surface
Installation of the precast/cast-in-place concrete
columns, beams & double tees for the garage
intermediate & top parking levels
Installation of the precast, architectural concrete
panels at the exposed garage perimeters
Installation of French drain systems as required by
the Plans & Specifications
Installation of the concrete wearing surface on the
intermediate & top parking levels
Installation of the tower elements
Installation of miscellaneous & architectural metals
Engineering, lay-out and installation of garage storm
water collection system

Supp. App. 23
Engineering, lay-out and installation of storm
drainage & detention vault system
Installation of concrete curbs & gutters at parking
surface above the detention vault
Installation of the parking surface above the
detention vault
Engineering, lay-out and installation of garage
lighting system
Engineering, lay-out and installation of garage &
area pedestrian lighting system
Engineering, lay-out and installation of fire protection
system
Engineering, lay-out and installation of the mechanical
ventilation system
Installation of entrance aprons & accesses from roads
& drives into garage
Installation of integral and area concrete sidewalks
Striping and marking of garage parking
Installation of directional, safety & way finding signage
Mature tree relocations and replacements
Landscaping & hardscaping
Installation of underground irrigation system
Materials engineering & testing

Supp. App. 24
Off Site Improvements at Quebec Street, East
Berry Avenue, Syracuse & Roslyn streets
The work includes all material, labor, equipment
and incidentals required to complete the reconfiguration and/or reconstruction of Quebec
Street, East Berry Avenue, Syracuse & Roslyn
Streets, including, but not necessarily limited to,
the following:
Demolition of curbs, gutters, asphalt, islands, etc. as
required by the Plans & Specifications
Trucking of demolition debris to offsite locations
Engineering & layout of the reconfigured right-of-way
Engineering, lay-out & installation of reconfigured
utilities as required by the Plans & Specifications
Engineering, lay-out & installation of reconfigured
roadway lighting system
Engineering, lay-out & installation of reconfigured
pedestrian lighting system
Grading & balancing of the area for road base
preparation
Proof rolling & preparation of the road base per
Plans & Specifications
Installation of entrance aprons, accesses, & curb cuts
Installation of concrete curbs & gutters
Installation of full thickness asphalt road material
Installation of round-about at East Berry Avenue/
Syracuse intersection
Installation of on-street parking
Installation of concrete sidewalks
Striping & marking of the road
Installation of directional, safety & way finding signage
Installation of monument signage

Supp. App. 25
Installation of pedestrian crosswalks & decorative
intersections
Relocations and replacements of mature trees
Landscaping & hardscaping
Installation of underground irrigation system
Engineering & testing of materials
Department of Public Works Fees

